Audit Report




OIG-06-018
Audit of the Bureau of Engraving and Printing’s Fiscal Years
2005 and 2004 Financial Statements


December 20, 2005




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 20, 2005


            MEMORANDUM FOR THOMAS A. FERGUSON, DIRECTOR
                            BUREAU OF ENGRAVING AND PRINTING

            FROM:                  William H. Pugh
                                   Deputy Assistant Inspector General
                                      for Financial Management and Information
                                      Technology Audits

            SUBJECT:               Audit of the Bureau of Engraving and Printing’s
                                   Fiscal Years 2005 and 2004 Financial Statements


            I am pleased to transmit the attached audited Bureau of Engraving and Printing
            (BEP) financial statements for fiscal years 2005 and 2004. We contracted with the
            independent certified public accounting firm Ernst & Young LLP (EY) to audit the
            financial statements of BEP as of September 30, 2005 and 2004 and for the years
            then ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 01-02, Audit Requirements for Federal
            Financial Statements; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by EY, are incorporated in the attachment:

                •   Report of Independent Auditors;
                •   Report of Independent Accountants, in which EY expressed its opinion on
                    management’s assertion on the effectiveness of internal control over
                    financial reporting;
                •   Report on Internal Control Over Financial Reporting and on Compliance and
                    Other Matters Based on an Audit of the Financial Statements in Accordance
                    With Government Auditing Standards; and
                •   Report of Independent Auditors on Other Financial Information

            In its audit, EY found that the financial statements were fairly presented, in all
            material respects, in conformity with accounting principles generally accepted in
            the United States of America. EY also found that BEP management’s assertion that
            it maintained effective internal control over financial reporting as of
            September 30, 2005 was fairly stated in all material respects. However, EY’s
            Report on Internal Control Over Financial Reporting and on Compliance and Other
            Matters Based on an Audit of the Financial Statements in Accordance With
            Government Auditing Standards contained one reportable condition related to a
            depository account for public sales, which was not considered a material
weakness. EY found no instances of reportable noncompliance with laws and
regulations tested.

EY also issued a management letter dated October 25, 2005, discussing other
matters involving internal control over financial reporting and its operation that
were identified during the audit but were not required to be included in the
auditors’ reports.

In connection with the contract, we reviewed EY’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or BEP management’s assertion on the
effectiveness of internal control over financial reporting, or conclusions about the
effectiveness of internal control or compliance with laws and regulations. EY is
responsible for the attached auditors’ reports dated October 25, 2005 and the
conclusions expressed in the reports. However, our review disclosed no instances
where EY did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment
THE DEPARTMENT OF THE TREASURY
BUREAU OF ENGRAVING AND PRINTING

Audited Financial Statements and Other Financial Information

Years ended September 30, 2005 and 2004 with Report of Independent Auditors
                                  The Department of the Treasury
                                 Bureau of Engraving and Printing

            Audited Financial Statements and Other Financial Information
                     Years Ended September 30, 2005 and 2004


                                             Table of Contents



Report of Independent Auditors......................................................................Section I

Audited Financial Statements ....................................................................... Section II
       • Balance Sheets
       • Statements of Operations and Cumulative Results of Operations
       • Statements of Cash Flows
       • Notes to Financial Statements

Report on Internal Control Over Financial Reporting and on Compliance
and Other Matters Based on an Audit of the Financial Statements in
Accordance With Government Auditing Standards..................................... Section III

Other Financial Information ........................................................................Section IV
       • Report of Independent Auditors on Other Financial Information
       • Statements of Operations (By Product Line)

Internal Control Over Financial Reporting .................................................. Section V
        • Report of Independent Accountants
        • Management’s Report on Internal Control Over Financial
           Reporting
          Section I


Report of Independent Auditors
                                                   r Ernst &Young LLP                Phone: (202) 327-6000
                                                     1225 Connecticut Avenue, N.W.   www.ey.com
                                                     Washington, D.C. 20036


                            Report of Independent Auditors


To the Inspector General, Department of the Treasury, and
the Director of the Bureau of Engraving and Printing,
Department of the Treasury

We have audited the accompanying balance sheets of the Bureau of Engraving and
Printing (Bureau), a bureau of the Department of the Treasury, as of September 30, 2005
and 2004, and the related statements of operations and cumulative results of operations,
and cash flows for the fiscal years then ended. These financial statements are the
responsibility of the Bureau's management. Our responsibility is to express an opinion
on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the
United States, the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States, and Office
of Management and Budget Bulletin No. 01-02, Audit Requirements for Federal
Financial Statements, as applicable. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting
the amounts and disclosures in the financial statements. An audit also includes assessing
the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of the Bureau of Engraving and Printing at September 30,
2005 and 2004, and the results of its operations and its cash flows for the years then
ended in conformity with accounting principles generally accepted in the United States.

In accordance with Government Auditing Standards, we have also issued our report dated
October 25, 2005 on our consideration of the Bureau's internal control over financial
reporting and our tests of its compliance with certain provisions of laws, regulations, and
other matters. The purpose of that report is to describe the scope of our testing of internal
control over financial reporting and compliance and the results of that testing, and not to
provide an opinion on the internal control over financial reporting or on compliance.
That report is an integral part of an audit performed in accordance with Government
Auditing Standards and should be considered in assessing the results of our audits.




October 25, 2005


                              A Member Practice of Ernst &Young Global
         Section II


Audited Financial Statements
                           THE DEPARTMENT OF THE TREASURY
                          BUREAU OF ENGRAVING AND PRINTING

                                          BALANCE SHEETS


                                                                      September 30
                                                              2005                        2004
                                                                      (In Thousands)
Assets
Current assets:
  Cash (Note 3)                                            $183,250                    $168,928
  Accounts receivable (Note 4)                               42,038                      44,607
  Inventories (Note 5)                                       75,246                     103,391
  Prepaid expenses                                            3,675                       3,148
Total current assets                                        304,209                     320,074


Net property and equipment (Notes 2 and 6)                  249,403                     261,042



Other assets, principally machinery repair parts
  and tools (Note 2)                                         17,322                      16,593
Total assets                                               $570,934                    $597,709



Liabilities and equity
Current liabilities:
  Accounts payable                                          $13,564                     $19,267
  Accrued liabilities (Note 7)                               27,815                      30,980
  Advances                                                    3,881                        461
Total current liabilities (Note 7)                           45,260                      50,708


Workers’ compensation liability (non-actuarial) (Note 8)      5,690                       5,593
Workers’ compensation actuarial liability (Note 2)           59,407                      62,304
Total liabilities                                           110,357                     118,605


Equity
  Invested capital                                           32,435                      32,435
  Cumulative results of operations                          428,142                     446,669
Total equity                                                460,577                     479,104
Total liabilities and equity                               $570,934                    $597,709




See accompanying notes.




                                                                            2005 CFO Report
                                                                                            37
                           THE DEPARTMENT OF THE TREASURY
                          BUREAU OF ENGRAVING AND PRINTING

                            STATEMENTS OF OPERATIONS AND
                          CUMULATIVE RESULTS OF OPERATIONS


                                                               Year Ended September 30
                                                           2005                         2004
                                                                    (In Thousands)


Revenue from sales (Note 9)                             $512,064                     $524,752
Cost of goods sold                                       472,478                      493,255
Gross margin on operations                                39,586                       31,497


Operating costs:
  General and administrative                              50,465                       51,739
  Research and development                                 7,648                        8,564
                                                          58,113                       60,303


Excess of expenses over revenues
  resulting from operations                             (18,527)                     (28,806)


Cumulative results of operations at beginning of year    446,669                      475,475
Cumulative results of operations at end of year         $428,142                     $446,669




See accompanying notes.




     2005 CFO Report
     38
                           THE DEPARTMENT OF THE TREASURY
                          BUREAU OF ENGRAVING AND PRINTING

                                  STATEMENTS OF CASH FLOWS


                                                                    Year Ended September 30
                                                                2005                          2004
                                                                         (In Thousands)
Operating activities
Excess of expenses over revenues                            ($18,527)                     ($28,806)
Adjustments to reconcile excess of expenses over revenues
  to net cash provided (used) by operating activities:
     Depreciation and amortization                            34,618                        40,997
     Loss on disposal of property and equipment                  993                            78
     Changes in assets and liabilities:
       Accounts receivable                                     2,569                           717
       Inventories                                            28,145                        (8,720)
       Prepaid expenses                                         (527)                        1,390
       Other assets                                             (729)                       (1,877)
       Accounts payable                                       (5,703)                        5,405
       Accrued liabilities                                    (3,165)                        2,068
       Advances                                                3,420                        (1,238)
       Workers’ compensation costs                            (2,800)                        1,115
Net cash provided by operating activities                     38,294                        11,129


Investing activities
Additions to property and equipment                          (23,972)                      (17,814)
Net cash (used in) investing activities                      (23,972)                      (17,814)



Net increase (decrease) in cash                               14,322                        (6,685)
Cash at beginning of year                                    168,928                       175,613
Cash at end of year                                         $183,250                      $168,928



See accompanying notes.




                                                                               2005 CFO Report
                                                                                                39
                          THE DEPARTMENT OF THE TREASURY
                         BUREAU OF ENGRAVING AND PRINTING

                        NOTES TO FINANCIAL STATEMENTS
                    YEARS ENDED SEPTEMBER 30, 2005 AND 2004


1. Reporting Entity

Basis of Presentation

The Bureau of Engraving and Printing (the Bureau), a component of the Department of the Treasury, is the U.S.
Government's security printer. The Bureau designs and produces United States currency, postage stamps and
other United States securities. The Bureau also advises and assists Federal agencies in the design and production
of other Government documents.


The Bureau operates under basic authorities conferred by the Act of July 11, 1862 (12 Stat. 532; also, 31 U.S.C. 5114)
and other Acts. In accordance with the provisions of Public Law 81-656, effective August 4, 1950, the operations
of the Bureau are financed by means of a revolving fund. This fund is reimbursed through billings to the Bureau's
customers for products delivered. Public Law 95-81 authorized the Bureau to include in its product prices an
amount to provide funding for the acquisition of capital equipment and future working capital.


The financial statements represent the consolidation of two Federal revolving funds. The majority of all amounts
and activity (approximately 99%) is contained in the Bureau of Engraving and Printing Revolving Fund, which
finances Bureau operations. The other revolving fund, the Mutilated Currency Revolving Fund, is used to
redeem damaged paper currency received from the public.


2. Summary of Significant Accounting Policies

Basis of Accounting

The Bureau of Engraving and Printing has historically prepared its financial statements in conformity with
generally accepted accounting principles, based on accounting standards issued by the Financial Accounting
Standards Board (FASB), the private-sector standards-setting body. In October 1999, the Federal Accounting
Standards Advisory Board (FASAB) was designated by the American Institute of Certified Public Accountants
(AICPA) as the standards-setting body for financial statements of federal government entities, with respect to the
establishment of generally accepted accounting principles.         FASAB has indicated, however, that financial
statements prepared based upon accounting standards published by the FASB may also be regarded as in
conformity with generally accepted accounting principles for those federal agencies, such as the Bureau of
Engraving and Printing, that have issued financial statements based upon FASB accounting standards in the past.
Accordingly, consistent with historical reporting, the Bureau of Engraving and Printing financial statements are
presented in accordance with accounting standards published by the FASB.




     2005 CFO Report
      40
                          THE DEPARTMENT OF THE TREASURY
                         BUREAU OF ENGRAVING AND PRINTING

                 NOTES TO FINANCIAL STATEMENTS (CONTINUED)


2. Summary of Significant Accounting Policies (continued)

Equipment and Spare Parts

In July 2005, the Bureau permanently completed production of postage stamps for the U.S. Postal Service. All
remaining postage stamp related production equipment and spare parts have been fully depreciated and will be
disposed of in accordance with applicable government regulations.


In 2004, the disposal of idle equipment and repair parts no longer needed to produce U.S. postage stamps was
completed. The equipment and related spare parts were turned over to the General Services Administration
(GSA) for disposal in accordance with applicable government regulations.


Estimation Process

The preparation of financial statements requires management to make estimates and assumptions that affect
amounts reported in the financial statements and accompanying notes. Such estimates and assumptions could
change in the future as more information becomes known, which could impact the amounts reported and
disclosed herein.


Inventories

Inventories are valued at standard cost, except for finished goods inventories, which are valued at weighted
average unit cost. Both methods approximate actual cost. Cost elements included in work-in-process and
finished goods inventories are direct materials, direct labor, manufacturing overhead and manufacturing support.


Other Assets

Other assets consist principally of machinery repair parts, tools and supplies which are used in the production of
the Bureau's products.    Other assets are valued at standard cost, net of reserve for obsolescence, which
approximates actual costs.


Property and Equipment

Property and equipment are recorded at cost.         Major alterations and renovations are capitalized, while
maintenance and repair costs are charged to expense as incurred. The capitalization threshold is $50,000.


The Bureau occupies and uses buildings and land owned by the U.S. Government. In accordance with the Act
establishing the revolving fund, the Bureau is not charged for the use of the buildings or land, but is responsible
for maintenance and repair of all buildings and land improvements. The land and building shell for the Bureau's
Western Currency Facility were donated by the City of Fort Worth, Texas to the United States Government. See
Note 6 for details.



                                                                                            2005 CFO Report
                                                                                                           41
                             THE DEPARTMENT OF THE TREASURY
                            BUREAU OF ENGRAVING AND PRINTING

                    NOTES TO FINANCIAL STATEMENTS (CONTINUED)


2. Summary of Significant Accounting Policies (continued)

Depreciation

Depreciation of property and equipment is calculated using the straight-line method over the following estimated
useful lives:


                Machinery and equipment                                     3 - 15 years
                Building improvements                                       3 - 40 years
                Information technology (IT) equipment and software          3 - 5 years
                Office machines                                             5 - 10 years
                Furniture and fixtures                                      5 - 10 years
                Motor vehicles                                              3 - 9 years


Employee Retirement Plans

Bureau employees participate in the contributory Civil Service Retirement System (CSRS) or Federal Employees'
Retirement System (FERS), to which the Bureau and employees make contributions according to plan
requirements. Employer contributions to the retirement plans for 2005 and 2004 were $15.7 million and $14.8
million, respectively. The CSRS employer contribution rate for fiscal years 2005 and 2004 was 7.0%. The FERS
agency contribution rates for fiscal year 2005 and 2004 were 11.2% and 10.7%, respectively. The cost of providing
the CSRS and FERS benefits is more than the amounts contributed by the Bureau and the employees to the Office
of Personnel Management (OPM). The full cost of providing pension benefits, including the cost financed by
OPM, which is not included in the Bureau's Statement of Operations, totaled $23.6 million and $23.9 million in
2005 and 2004, respectively.


Consistent with reporting under multi-employer pension plans, the Bureau does not report CSRS and FERS
assets, accumulated plan benefits or future liabilities, if any, applicable to its employees. This data is reported for
plan participants by OPM.


Postretirement Benefits Other than Pensions

Postretirement benefits for former Bureau employees, specifically health care costs and life insurance, are
administered and paid by OPM through appropriations received from the United States Government. The
Bureau does not reimburse OPM for these payments. OPM paid such retirement benefit costs totaling $10.5
million and $9.8 million, as calculated by OPM, for the Federal Employees Health Benefits Program (FEHBP) and
Federal Employees Group Life Insurance (FEGLI) programs in 2005 and 2004, respectively. These costs are not
included in the Bureau's Statements of Operations.


Consistent with reporting under a multi-employer plan arrangement, no accrued liability is required to be
recorded by the Bureau for recognition of postretirement benefits other than pensions.



      2005 CFO Report
      42
                          THE DEPARTMENT OF THE TREASURY
                         BUREAU OF ENGRAVING AND PRINTING

                 NOTES TO FINANCIAL STATEMENTS (CONTINUED)


2. Summary of Significant Accounting Policies (continued)

Cost of Employee Pensions and Postretirement Benefits Paid by OPM

As noted above, the Bureau's financial statements do not include the cost of employee pensions and
postretirement benefits paid by OPM, or the actuarial liability for such benefits. There have been proposals made
to have such costs and liabilities included at the Bureau level. If this change were made, it would have a material
effect on the Bureau's financial statements.


Workers’ Compensation Costs

The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to covered
Federal civilian employees injured on the job, employees who have incurred a work-related occupational disease
and beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Claims
incurred for benefits for the Bureau's employees under FECA are administered by the Department of Labor (DOL)
and are ultimately paid by the Bureau. These future workers' compensation estimates were generated from an
application of actuarial procedures developed to estimate the liability for FECA benefits. The actuarial liability
for future worker's compensation benefits includes the expected liability for death, disability, medical and
miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims.
The liability is determined using a method that utilizes historical benefit payment patterns related to a specific
incurred period to predict the ultimate payments related to that period. These annual benefit payments have
been discounted to present value using the OMB’s economic assumptions for 10-year Treasury notes and bonds,
which resulted in a discount rate of 4.528% in year one and 5.020% there after. Based on information provided by
the DOL, the Department of the Treasury (Treasury) allocated the overall liability to Treasury components based
on past claims paid. The Bureau's estimated liability for workers' compensation costs was $59.4 million and $62.3
million as of September 30, 2005 and 2004, respectively.


Annual, Sick and Other Leave

Annual leave is accrued as a liability when earned and the accrual is reduced as leave is taken. The balance in
this accrued liability account reflects current pay rates.


Sick leave and other types of nonvested leave are expensed as the leave is taken.


Revenue Recognition

Revenue from sales to the Federal Reserve System and United States Postal Service is recognized when finished
goods are delivered to the on-site Federal Reserve Depository Vaults or United States Postal Service Vault, and they
are released for shipment. Finished goods are released for shipment in accordance with customer requirements.




                                                                                             2005 CFO Report
                                                                                                            43
                           THE DEPARTMENT OF THE TREASURY
                          BUREAU OF ENGRAVING AND PRINTING

                 NOTES TO FINANCIAL STATEMENTS (CONTINUED)


2. Summary of Significant Accounting Policies (continued)

Advertising Cost

The Bureau incurred $7.4 million and $20.4 million in advertising costs for the years ended September 30, 2005 and
2004, respectively, related to the Next Generation Currency Notes public education program. These costs are
expensed as incurred.


3. Cash

The year-end cash balances are as follows:                                           September 30
                                                                           2005                          2004
                                                                                     (In Thousands)
Bureau of Engraving and Printing
  Revolving Fund                                                       $181,286                       $168,442
Mutilated Currency Revolving Fund                                           740                           461
Other                                                                     1,224                            25
Total                                                                  $183,250                       $168,928


Other cash at September 30, 2005, consists of a deposit-in-transit of $818 thousand and $406 thousand from the
sale of uncut currency awaiting transfer to the Treasury general account. Other cash at September 30, 2004,
consisted of a deposit-in-transit of $25 thousand.


4. Accounts Receivable

Accounts receivable consist of the following:                                        September 30
                                                                           2005                          2004
                                                                                     (In Thousands)


Billed                                                                  $40,790                        $42,024
Unbilled                                                                  1,248                          2,583
Total                                                                   $42,038                        $44,607


The Bureau had intragovernmental accounts receivable of $0.1 million and $2.2 million as of September 30, 2005
and 2004, respectively. Historical accounts receivable loss experience does not warrant the establishment of an
allowance for uncollectible accounts.




        2005 CFO Report
        44
                          THE DEPARTMENT OF THE TREASURY
                         BUREAU OF ENGRAVING AND PRINTING

                  NOTES TO FINANCIAL STATEMENTS (CONTINUED)


5. Inventories

Inventories consist of the following:                                                September 30
                                                                           2005                           2004
                                                                                      (In Thousands)


Raw materials and supplies                                               $32,814                        $47,819
Work-in-process                                                           28,818                         43,546
Finished goods - postage stamps and
  special products                                                             1                          3,610
Finished goods - uncut currency                                           13,613                          8,416
Total                                                                    $75,246                       $103,391


6. Net Property and Equipment

Property and equipment consist of the following:
                                                                                     September 30
                                                                           2005                           2004
                                                                                     (In Thousands)


Machinery and equipment                                                $393,518                        $442,786
Building and land improvements                                           206,575                        210,997
IT equipment and software                                                 14,592                         26,157
Office machines                                                            1,201                          1,195
Furniture and fixtures                                                     1,385                          3,108
Donated assets - art work                                                    125                           125
Motor vehicles                                                               212                           265
                                                                         617,608                        684,633
Less accumulated depreciation                                            385,623                        429,586
                                                                         231,985                        255,047
Construction-in-progress                                                  17,418                          5,995
Net property and equipment                                             $249,403                        $261,042



Fully depreciated assets in use as of September 30, 2005 and 2004 were $201 million and $167 million, respectively.


The Bureau occupies and uses buildings and land owned by the U.S. Government. The land and building shell
for the Fort Worth, Texas facility were donated by the City of Fort Worth to the U.S. Government in 1987, and title
is held by the U.S. Government. At the time of donation, the land had an appraised value of $1.5 million and the
building shell cost was $5.6 million. In accordance with the provisions of Public Law 81-656, Bureau financial
statements include only the costs to complete the facility.



                                                                                            2005 CFO Report
                                                                                                            45
                           THE DEPARTMENT OF THE TREASURY
                          BUREAU OF ENGRAVING AND PRINTING

                 NOTES TO FINANCIAL STATEMENTS (CONTINUED)


7. Current Liabilities

All current liabilities are funded and consist of the following:
                                                                                        September 30
                                                                                 2005                          2004
                                                                                        (In Thousands)


Intragovernmental                                                           $7,222                            $4,847
Other                                                                       38,038                            45,861
Total                                                                      $45,260                           $50,708



Accrued current liabilities consist of the following:
                                                                                        September 30
                                                                                 2005                          2004
                                                                                        (In Thousands)


Payroll                                                                    $12,709                           $15,677
Annual leave                                                                10,183                             9,606
Workers’ compensation                                                        4,420                             4,536
Other                                                                            503                           1,161
Total                                                                      $27,815                           $30,980


8. Workers’ Compensation Liability (Non-Actuarial)

The Bureau has recorded a liability for claims incurred and paid to claimants by the Department of Labor (DOL)
as of September 30, 2005 and 2004, but not yet reimbursed to DOL by the Bureau. Such amounts, associated with
workers' compensation, which will be paid in subsequent years, are approximately $5.7 million and $5.6 million,
respectively (See Note 2).


9. Revenue from Sales

Revenues are derived from the following principal customers:
                                                                            September 30
                                                                 2005                                 2004
                                                                            (In Thousands)


Federal Reserve System                              $476,762            93.1%            $491,179             93.6%
United States Postal Service                            17,336           3.4%                19,501            3.7%
Other                                                   17,966           3.5%                14,072            2.7%
Total                                               $512,064            100.0%           $524,752            100.0%



        2005 CFO Report
        46
                          THE DEPARTMENT OF THE TREASURY
                         BUREAU OF ENGRAVING AND PRINTING

                   NOTES TO FINANCIAL STATEMENTS (CONTINUED)


9. Revenue from Sales (continued)

Other revenue consists principally of the sale of security products to government agencies, the sale of uncut
currency to the public, and fees charged to the Federal Reserve for the redemption of mutilated currency.


Revenue from sales decreased approximately 2.4% in 2005 as the result of a reduction in currency billing rates and
a decrease in the number of Federal Reserve Notes delivered.


In 2001, the Bureau and the U.S. Postal Service entered into an agreement that gradually phased out production
of postage stamps at the Bureau over a five-year period ending in 2005, with delivery services continuing
through 2006.


10. Principal Suppliers

The Bureau is dependent upon sole suppliers for distinctive currency paper, certain advanced counterfeit
deterrent inks and currency paper fibers.


11. Commitments and Contingencies

The Bureau is involved in various lawsuits incidental to its operations. Judgments resulting from litigation against
the Bureau are paid by the Department of the Treasury Judgment Fund. The Bureau is required to reimburse the
Judgment Fund for paid claims related to employee discrimination and contract disputes.              There were no
unreimbursed payouts from the Judgment Fund in fiscal years 2004 and 2005. In the opinion of management, the
ultimate resolution of pending litigation will not have a material effect on the financial statements.


In 2004, the Bureau contracted to purchase currency production equipment, costing $23.7 million, to be delivered
in 2006.


The Bureau does not carry commercial insurance on its physical assets because by law the Federal Government
is self-insured.


The Bureau has not entered into any long-term leasing arrangements.


12. Staffing

In 2005 and 2004, in order to reduce staffing and better match facility staffing and production requirements, the
Bureau offered voluntary employee separation incentives. As a result, approximately 100 employees accepted the
incentives and the Bureau incurred expenses of $2.6 million in 2005. In 2004, approximately 200 employees accepted
the incentives and the Bureau incurred expenses of $5.1 million.




                                                                                              2005 CFO Report
                                                                                                            47
                  Section III


   Report on Internal Control Over Financial
Reporting and on Compliance and Other Maters
Based on an Audit of the Financial Statements in
Accordance With Government Auditing Standards
                                                       ~1 Ernst &Young LLP              #a Phone: (202) 327-6000
                                                          1225 Connecticut Avenue, NW      www.ey.com
                                                          Washington, D.C. 20036



   Report on Internal Control Over Financial Reporting and on Compliance and Other
          Matters Based on an Audit of the Financial Statements in Accordance
                         With Government Auditing Standards


To the Inspector General, Department of the Treasury, and
the Director of the Bureau of Engraving and Printing,
Department of the Treasury

We have audited the financial statements of the Bureau of Engraving and Printing (Bureau), a
bureau of the Department of the Treasury, as of and for the year ended September 30, 2005, and
have issued our report thereon dated October 25, 2005. We conducted our audit in accordance
with auditing standards generally accepted in the United States, the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States, and Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements, as applicable. We also have examined, in
accordance with attestation standards established by the American Institute of Certified Public
Accountants, the effectiveness of the Bureau's internal control over financial reporting as of
September 30, 2005, based on criteria established in "Internal Control - Integrated Framework"
issued by the Committee of Sponsoring Organizations of the Treadway Commission, and the
applicable requirements of Appendix A of OMB Circular A-123, Management's Responsibility
for Internal Control, and our report dated October 25, 2005 expressed an unqualified opinion.

Internal Control Over Financial Reporting

In planning and performing our audits, we noted a matter involving the internal control over
financial reporting and its operation that we consider to be a reportable condition based on
standards generally accepted in the United States as established by the American Institute of
Certified Public Accountants. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the intemal control over financial
reporting that, in our judgment, could adversely affect the Bureau's ability to initiate, record,
process, and report financial data consistent with the assertions of management in the financial
statements. The reportable condition is described below.

Depository Account for Public Sales

During our FY 2005 audit, we became aware that a depository account maintained by the Bureau
had not been approved by the Department of Treasury's (Treasury) Financial Management
Service (FMS). We were informed that this account was opened in 1995 and, subsequent to
1997, was used to secure daily cash receipts from sales to the public from the Bureau's gift shop
and, more recently, has been used for orders through the Internet. The Bureau deposited the cash
receipts into the account each day. Beginning in FY 2005, the number and dollar amount of the
transactions increased due to additional activity from a new customer. As a result of this
increased activity, the Office of Financial Management (OFM) worked with personnel from the
Office of External Relations (OER) to improve controls and accounting related to public sales in
the fourth quarter of FY 2005. The Bureau's policy was to accumulate the daily deposits, then

                                  A Member Practice of Ernst &Young Global
                                                      ul Ernst &Young LLP
Report on Internal Control Over Financial Reporting and on Compliance and Other Matters
Page 2

transfer funds from the account to their approved revolving fund account monthly. At
September 30, 2005, the Bureau appropriately recorded the balance remaining in the account on
their financial statements. However, this practice was not implemented until the final quarter of
FY 2005. While public sales activity was appropriately recorded on the financial statements at
year-end, we noted the following items related to the cash account that indicated management
controls need additional strengthening:

          The cash account was maintained by OER with limited involvement by OFM until the
          fourth quarter of FY 2005. While OER personnel performed certain informal
          reconciliation procedures to match deposit slips from receipts to the account statements,
          no formal reconciliations were prepared until August 2005. Prior to the fourth quarter
          of FY 2005, OFM personnel were recording sales activity as deposits were made to the
          revolving fund, not as of the day of the original sale.

          Funds were not deposited to an account approved by FMS timely.

      0   A check for approximately $800,000 was drawn from the outside depository account
          but not deposited with FMS for over a week. Instead, the check was maintained in a
          safe within OFM. As of September 30, 2005, this amount appears as a deposit in transit
          on the balance sheet.

          One of the authorized signatories on the account had not been employed by the Bureau
          for approximately 8 years. This former employee was removed as an authorized signer
          in October 2005.

In addition to the internal control issues discussed above, we noted instances where the Bureau
may not have complied with certain laws and regulations. For instance, the Bureau was unable
to locate documentation from FMS for authorization to designate the holder of the account as a
depository and financial agent of the federal government, did not deposit funds timely, and
maintained balances in the account exceeding the FDIC-insured threshold of $100,000 without
obtaining the required collateral security.

We reviewed our finding with Bureau management, and management concurred. We also noted
that the Bureau has taken steps to remediate the situation by notifying appropriate personnel,
including FMS, the OIG, and the Bureau's Chief Counsel. In addition, management has
informed us that they have stopped the process of depositing public sales receipts in the account,
and they are in the process of closing this account. Instead, receipts will be deposited daily in an
approved account. We were informed that proceeds from sales to the new customer that led to
the more significant activity in this account are now wired directly to an appropriate account.

We recommend that management complete the process of closing the account and transferring
funds to FMS, and strengthen the controls surrounding the cash account process to ensure that
financial records are accurate and to reduce the risk of errors and irregularities. To the extent
that formerly relatively minor sales to the public of collectible items continue to grow, we also
                                                     m Ernst &Young LLP
Report on Internal Control Over Financial Reporting and on Compliance and Other Matters
Page 3

encourage management to revisit and strengthen its control process in the area, including daily
recognition of activity in the Bureau records.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Our consideration of the
internal control over financial reporting would not necessarily disclose all matters in the internal
control that might be reportable conditions. However, we do not believe the reportable condition
described above is a material weakness.

In addition, with respect to internal control related to performance measures reported in the Chief
Financial Officer Performance and Accountability Report, we obtained an understanding of the
design of significant internal control relating to the existence and completeness assertions, as
required by OMB Bulletin No. 01-02, as applicable. Our procedures were not designed to
provide assurance on internal control over reported performance measures, and, accordingly, we
do not provide an opinion on such controls.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Bureau's financial statements are
free of material misstatement, we performed tests of its compliance with certain provisions of
laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts and certain other
laws and regulations specified in OMB Bulletin No. 01-02, as applicable. However, providing an
opinion on compliance with those provisions was not an objective of our audit and, accordingly,
we do not express such an opinion. The results of our tests disclosed no instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards, and OMB Bulletin No. 01-02, as applicable.

In addition to the reportable condition described above, we noted certain other matters involving
internal control over financial reporting and its operation that we have reported to management
of the Bureau in a separate letter dated October 25, 2005.

This report is intended solely for the information and use of the management of the Bureau,
OMB, Congress, and the Department of the Treasury's Office of Inspector General, and is not
intended to be and should not be used by anyone other than these specified parties.




October 25, 2005
        Section IV

Other Financial Information
                                                       r   Ernst &Young LLP                m Phone: (202) 327-6000
                                                           1225 Connecticut A
                                                                            Avenue, N.W.     www.ey.com
                                                           Washington, D.C. 20036


              Report of Independent Auditors on Other Financial Information


To the Inspector General, Department of the Treasury, and
the Director of the Bureau of Engraving and Printing,
Department of the Treasury

Our audits were conducted for the purpose of forming an opinion on the basic financial
statements of the Bureau of Engraving and Printing taken as a whole. The accompanying
additional information in the Statements of Operations (by Product Line) is presented for
purposes of additional analysis and is not a required part of the basic financial statements. Such
additional information has not been subjected to the auditing procedures applied in our audits of
the basic financial statements and, accordingly, we express no opinion on it.




October 25, 2005




                                 A Member Practice of Ernst & Young Global
                            THE DEPARTMENT OF THE TREASURY
                           BUREAU OF ENGRAVING AND PRINTING

    STATEMENTS OF OPERATIONS (BY PRODUCT LINE) (UNAUDITED)

                                                                                   Year Ended September 30
                                                                               2005                           2004
                                                                                         (In Thousands)


Currency program revenues                                                  $494,728                       $505,251
Cost of goods sold                                                          458,839                        472,430
Gross margin on operations                                                   35,889                         32,821


Operating costs:
  General and administrative                                                 48,850                         49,592
  Research and development                                                    7,648                          8,564


Currency-excess of expenses over revenues                                  (20,609)                        (25,335)


Postage program revenue                                                      17,336                         19,501
Cost of goods sold                                                           13,639                         20,825
Gross margin on operations                                                    3,697                         (1,324)


Operating costs:
  General and administrative                                                  1,615                          2,147


Postage-excess of expenses over revenues                                      2,082                         (3,471)


Net results of operations                                                 ($18,527)                       ($28,806)



NOTE: Revenues and expenses for the currency product line include small amounts related to the production and sale of
miscellaneous special products and services. Support, a component of cost of goods sold, and general and administrative
expenses are allocated to the currency and postage product lines based upon the currency and postage manufacturing costs
estimated at the beginning of the year.


PRODUCT LINE STATEMENT OF OPERATIONS

Deliveries of Federal Reserve Notes in 2005 decreased by 300 million notes over 2004, while postage stamp
deliveries decreased by 1 billion stamps. The decrease in currency deliveries and a reduction in currency billing
rates resulted in a revenue decrease of approximately 2.1 percent in 2005, while postage stamp program revenue
decreased approximately 11 percent. Superior performance in the manufacturing areas coupled with Bureau-
wide cost containment efforts resulted in positive gross margin on operations in both programs. When setting
2005 currency prices, the Bureau planned for a net operating loss because the anticipated level of capital
investment was less than the annual depreciation expense. Public Law 95-81 granted the Bureau legal authority
to include capital surcharges in the billing rates. Because higher cost assets are funded prior to their installation,
the customer is not billed for depreciation expense after installation which would result in them paying for the
same capital asset twice.


                                                                                                 2005 CFO Report
                                                                                                                51
               Section V

Internal Control Over Financial Reporting
                                                      P   Ernst &Young LLP                rs Phone: (202) 327-6000
                                                          1225 Connecticut Avenue, N.W.      www.ey.com
                                                          Washington, D.C. 20036




                              Report of Independent Accountants


To the Inspector General, Department of the Treasury, and
the Director of the Bureau of Engraving and Printing,
Department of the Treasury

We have examined management's assertion, included in the accompanying "Management's
Report on Internal Control Over Financial Reporting," that the Bureau of Engraving and Printing
(Bureau), maintained effective internal control over financial reporting as of September 30,
2005, based on criteria established in "Internal Control-Integrated Framework" issued by the
Committee of Sponsoring Organizations of the Treadway Commission and the applicable
requirements of Appendix A of Office of Management and Budget Circular A-123,
Management's Responsibility for Internal Control. The Bureau's management is responsible for
maintaining effective internal control over financial reporting. Our responsibility is to express an
opinion on management's assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants, and the standards applicable to attestation
engagements contained in Government Auditing Standards, issued by the Comptroller General of
the United States, and, accordingly, included obtaining an understanding of the internal control
over financial reporting, testing and evaluating the design and operating effectiveness of the
internal control, and performing such other procedures as we considered necessary in the
circumstances. We believe that our examination provides a reasonable basis for our opinion.

Because of inherent limitations in any internal control, misstatements due to error or fraud may
occur and not be detected. Also, projections of any evaluation of the internal control over
financial reporting to future periods are subject to the risk that the internal control may become
inadequate because of changes in conditions, or that the degree of compliance with the policies
or procedures may deteriorate.

In our opinion, Bureau management's assertion that the Bureau maintained effective internal
control over financial reporting as of September 30, 2005 is fairly stated, in all material respects,
based on criteria established in "Internal Control-Integrated Framework" issued by the
Committee of Sponsoring Organizations of the Treadway Commission and the applicable
requirements of Appendix A of Office of Management and Budget Circular A-123,
Management's Responsibility for Internal Control.




                                 A Member Practice of Ernst &Young Global
                                                   u   Ernst & Young LLP

Report of Independent Accountants
Page 2

Our examination identified the need to improve certain internal controls over financial reporting,
as discussed in the accompanying "Report on Internal Control Over Financial Reporting and on
Compliance and Other Matters Based on an Audit of the Financial Statements in Accordance
with Government Auditing Standards," dated October 25, 2005.




October 25 , 2005
                 MANAGEMENT’S REPORT ON INTERNAL CONTROL
                        OVER FINANCIAL REPORTING


We, as management of the Bureau of Engraving and Printing, are responsible for establishing and maintaining
adequate internal control over financial reporting and for the assessment of the effectiveness of internal control
over financial reporting.     Internal control is designed to provide reasonable assurance to the Bureau’s
management regarding the reliability of financial reporting and the preparation of published financial statements.
Because of inherent limitations in any internal control, no matter how well designed, misstatements due to error
or fraud may occur and not be detected, including the possibility of circumvention or overriding of controls.
Accordingly, even effective internal control over financial reporting can provide only reasonable assurance with
respect to financial statement preparation.       Further, because of changes in conditions, internal control
effectiveness may vary over time.


The Bureau assessed its internal control over financial reporting as of September 30, 2005, based on criteria
established in Internal Control - Integrated Framework issued by the Committee of Sponsoring Organizations of
the Treadway Commission (the COSO Framework) and the applicable requirements of Appendix A of Office of
Management and Budget Circular A-123, “Management’s Responsibility for Internal Control.” Management’s
assessment included an evaluation of the design of the Bureau’s internal control over financial reporting and
testing of the operational effectiveness of those controls.


Based on this assessment, management has concluded that as of September 30, 2005, the Bureau’s internal control
over financial reporting was effective to provide reasonable assurance regarding the reliability of financial
reporting and the preparation of published financial statements based on the specified criteria. No material
weaknesses were found in the design or operation of the internal control over financial reporting.


Ernst & Young LLP, the independent public accounting firm that audited the Bureau’s financial statements
included in this report, has issued an attestation report on management’s assessment of internal control over
financial reporting, a copy of which is included herein.




                   Thomas A. Ferguson                                Gregory D. Carper
                       Director                                     Chief Financial Officer



October 25, 2005
Washington, DC




     2005 CFO Report
      34
